HHS/OIG-Audit--"Audit of Administrative Costs Incurred Under Part A and Part B of the Health Insurance for the Aged and Disabled Program--Health Care Services Corporation, Chicago, Illinois, (A-05-99-00070)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs Incurred Under Part A and Part B of the
Health Insurance for the Aged and Disabled Program--Health Care Services Corporation,
Chicago, Illinois," (A-05-99-00070)
March 21, 2000
Complete Text of Report is available in PDF format
(2.76 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit, performed by Doshi & Associates, P.C., covered administrative
costs claimed by the Health Care Services Corporation (HCSC), a former Medicare
Part A and Part B contractor, for the period October 1, 1994 through September
30, 1998. Their final report points out that HCSC's claims included unallowable
costs totaling approximately $9.9 million over this period. The majority of
the unallowable costs ($7.9 million) were bonuses that were part of an employee
retention plan rejected by the Health Care Financing Administration (HCFA) as
unreasonable and unnecessary. The bonuses consisted of a 50 percent increase
in salary paid through the transition period and most of the employees were
absorbed into "HCSC's private business operations or accepted positions
with the new Medicare contractor. Other major exceptions involved employee placement
services costs of $374,629 that were included in the retention plan rejected
by HCFA, severance pay of $509,912 which exceeded compensation levels specified
in an approved plan, and Year 2000 project costs of $738, 759 incurred after
the notice of termination. We are recommending financial adjustments totaling
$9.9 million.